M-121202

Municipal Credit Union
SECURED VISA CARDHOLDER AGREEMENT
AND DISCLOSURE STATEMENT
RETAIL INSTALLMENT CREDIT AGREEMENT

Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases and
Balance Transfers
APR for Cash Advances

11.90%

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by the
due date each month. We will begin charging interest on cash advances on
the transaction date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $.50.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

17.90%

Fees
Annual Fee

None

Transaction Fees
 Cash Advance

Either $1 or 3% of the amount of each Cash Advance, whichever is greater
(maximum $30.00).

 Foreign Transaction
1% of each transaction in U.S. dollars.
Penalty Fees
 Late Payment
 Returned Payment

Up to $30
Up to $20

How We Will Calculate Your Balance: We use a method called “average daily balance (including new
purchases).”
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in
your Cardholder Agreement.

1. Deﬁnitions: In this Agreement the words “we”, “us”, “our”, and “Credit Union” mean
Municipal Credit Union, 22 Cortlandt Street, New York, New York 10007. The words “you”,
“your” and “cardholder” mean anyone in whose name an MCU Secured VISA Card is
issued.
Annual Percentage Rate: The cost of your credit as a yearly rate.
Finance Charge: The dollar amount the credit will cost you.
Security Interest: When you agree to back up an advance with something that is yours, you
are giving a security interest to us.
2. Purchases: Your Card can be used to buy or lease goods or buy services any place that
honors VISA. The debt that results from a Purchase will be transferred to us.
Balance Transfers: In our discretion, we may allow you to transfer balances from other
accounts or loans from other credit card companies, other lenders or other balance transfers
we may allow using procedures and forms we provide. Those transfers are “balance
transfers”. Balance transfers are treated as Purchases and so the amounts transferred will be
applied to your Purchases Account. Generally, you are not authorized to transfer balances to
this Account from other accounts or loans with us. If you request a balance transfer but do
not have enough available credit, we may transfer only a part of the requested amount.
3. Advances: Your Card can be used to obtain an advance (loan) at any of our branch ofﬁces, at
any ﬁnancial institution which honors VISA or any other authorized location. If you have
received a personal identiﬁcation number (PIN), you may use your Card and PIN to obtain
advances at any ATM that accepts your Card. Except as otherwise provided in this
Agreement, such advances shall be treated as Cash Advances under this Agreement.
4. Convenience Checks: Upon request, and from time to time, we may send you convenience
checks for use in borrowing under this Agreement. All convenience checks you use will be
treated as cash advances under this Agreement unless we advise you otherwise. You may not
use the convenience checks to make payments on any credit card accounts, lines of credit or
loans with us. You understand that if you use a convenience check to make a purchase and
you have a dispute with that purchase, the dispute is not covered by the Billing Rights
Summary below. You understand that the convenience checks will not be returned to you.
5. Purchases Treated as Cash Advances: We consider certain transactions to be the
equivalent of Cash Advances, and we reserve the right to treat them as Cash Advances under
this Agreement. Those transactions include using the Card or Account to purchase wire
transfer money orders, money orders that are not issued by a ﬁnancial institution or are not in
U.S. currency, travelers checks, casino gaming chips, lottery tickets, off-track betting, wagers
at racetracks, and tax payments.
6. Maximum Credit Limit: We will from time to time notify you of the maximum amount of
credit which we will extend you under this Agreement. A portion of your credit limit, called
the Cash Advance limit, will be available for Cash Advances. We may increase or decrease
the credit limit or Cash Advance limit at anytime. The Cash Advance limit will be shown on
your monthly statement. We will not be responsible for failing to extend credit to you under

this Agreement. You agree not to allow the balance on your Account to go over the
maximum credit limit established for your Account. We will not extend credit if:


The extension of credit would cause the balance of your Account to exceed your credit
limit or if the balance of your Account already exceeds your credit limit, or



Anything has happened that allows us to declare your Account in default and therefore
immediately due, or



Your Card has been canceled or suspended, or



Your Card has expired.

If we do extend credit under any of the conditions above, it will be covered by the terms and
provisions of this Agreement. We may delay extending credit if you have previously sent us
a payment check or other negotiable instrument which has been returned as unpaid for any
reason.
7. Monthly Billing Statement: If you have a balance in your Account, we will send you a
monthly billing statement. It will show, among other things, the total amount of your
Purchases and Cash Advances Accounts, the periodic interest charges and other fees and
charges, the minimum payment due, and the date the payment is due.
8a. Periodic Interest Charge on Purchases: A periodic interest charge (finance charge) will be
imposed on each Purchase from the date the Purchase is posted to your Account until the date
it is paid in full, with the following exceptions: You may avoid periodic interest charges on
Purchases during any billing period if: (1) the opening balance on Purchases during any
billing period was zero (0); or (2) the total of payments and credits posted during the billing
period equals or exceeds the opening balance for that billing period.
We figure the Periodic Interest Charge on Purchases by applying the periodic rate to the
“average daily balance” of your Purchases Account (including current transactions). To get
the “average daily balance” we take the beginning balance of your Purchases Account each
day, add any new Purchases and subtract any payments or credits applied to Purchases that
day, unpaid periodic interest charges and other fees and charges. This gives us the daily
balance. Then, we add up all the daily balances for the billing period and divide the total by
the number of days in the billing period. This gives us the “average daily balance” which is
shown on your statement as the Balance Subject to Interest Rate for Purchases. Finally, we
multiply the average daily balance by the daily periodic rate of .03260% (corresponding
Annual Percentage Rate of 11.90%) and the number of days in the billing period.
8b. Periodic Interest Charge on Advances: A periodic interest charge (finance charge) will be
imposed on each Cash Advance from the day the Cash Advance is obtained until the date it is
paid in full. We figure the Periodic Interest Charge on Cash Advances by applying the
periodic rate to the “average daily balance” of your Cash Advances Account (including
current transactions). To get the “average daily balance” we take the beginning balance of
your Cash Advances Account each day, add any new Cash Advances, and subtract any
payments or credits applied to Cash Advances that day, unpaid periodic interest charges and
other fees and charges. This gives us the daily balance. Then, we add up all the daily
balances for the billing period and divide the total by the number of days in the billing
period. This gives us the “average daily balance” which is shown on your statement as the

Balance Subject to Interest Rate for Cash Advances. Finally, we multiply the average daily
balance by the daily periodic rate of .04904% (corresponding Annual Percentage Rate of
17.90%) and the number of days in the billing period.
8c. Minimum Interest Charge: There will be a minimum interest charge (finance charge) of
ﬁfty cents ($.50) for each billing period in which a periodic interest charge is payable on your
Purchases Account.
8d. Cash Advance Transaction Fee: You will pay a transaction fee (ﬁnance charge) each time
you obtain a Cash Advance. The transaction fee will be 3% of the amount advanced but not
less than $1.00 or more than $30.00.
8e. Foreign Transactions/Fees: A 1% International Transaction Fee (finance charge) will be
assessed on all transactions where the merchant is located outside the U.S. (even if the
currency used is U.S. dollars). The converted transaction amount will be shown separately
from the International Transaction Fee on your billing statement. This fee will be assessed on
all international purchases, credit vouchers, and cash disbursements.
The exchange rate for transactions in a foreign currency will be a rate selected by VISA from
the range of rates available in wholesale currency markets for the applicable central
processing date, which rate may vary from the rate VISA itself receives, or the government
mandated rate in effect for the applicable central processing date, plus the 1% International
Transaction Fee.
9. Late Payment Fee: We will charge you a late fee any time a required minimum payment is
not paid in full on or before the date it is due. The amount of this late fee will be the lesser of
(a) $25.00, or (b) the amount of the required minimum payment which was due immediately
prior to the assessment of this fee. If you make another late payment within six (6) billing
cycles of a previous late payment we will charge you the lesser of (a) $30.00, or (b) the
amount of the required minimum payment which was due immediately prior to the
assessment of this fee.
10. Returned Item Fee: We will charge you a returned item fee whenever your payment is
returned to us for insufficient funds or any other reason. The amount of this fee will be the
lesser of (a) $20.00, or (b) the amount of the required minimum payment due immediately
prior to the date the payment is returned. If both a late payment fee and a returned item fee
could be charged in any one billing cycle, only the fee eligible to be assessed first will be
charged (and not both fees).
11. Payment: You promise to pay us all the amounts borrowed under this Agreement and any
other amounts which you may owe us pursuant to this Agreement.
At any time and without penalty, you may repay all or part of what you owe. You must,
however, make at least the minimum payment each month. This minimum payment will be
the total of: (1) the greater of [a] 1/60th of the outstanding principal Cash Advances and
Purchases, or [b]$20.00, or the balance due, whatever is less; plus (2) currently calculated
periodic interest charges, Cash Advance transaction fees, other fees and charges incurred
during the billing period; plus (3) any minimum payment amount which is past due.

Paying more than the minimum payment for your account for any billing period will not
relieve you of the obligation to pay any future minimum payment for your Account.
12. Payment Allocation: Your payment will be applied in the following order to any of these
costs you owe: (1) collection costs, (2) fees and other Card charges, (3) late charges and
periodic interest charges in the manner and order the Credit Union elects, and (4) unpaid
principal balance of accrued Purchases and Cash Advances.
13. SECURITY INTEREST: IN CONSIDERATION OF US ISSUING YOU THIS CARD,
YOU HEREBY PLEDGE, GRANT AND ASSIGN TO US A SECURITY INTEREST
IN THE INSURED SHARE CERTIFICATE ACCOUNT YOU OPENED IN
CONNECTION WITH THIS SECURED CREDIT CARD ACCOUNT AND IN ALL
RENWALS, ADDITIONS AND PROCEEDS THERETO. YOU AGREE THAT THIS
ASSIGNMENT AND SECURITY INTEREST INCLUDES AND GIVES US THE
EXCLUSIVE RIGHT TO REDEEM, COLLECT AND WITHDRAW FROM SUCH
SHARE CERTIFICATE ACCOUNT ANY PART OR THE FULL AMOUNT YOU
OWE US PURSUANT TO THIS AGREEMENT.
14. Insurance: Credit life insurance and/or credit disability insurance may be made available to
you by the Credit Union. Insurance coverage is not required by us as a condition for the
extension of credit and may be cancelled by you at any time. A certificate of insurance issued
by the insurer will describe in detail the terms, conditions and limitations of this coverage.
This certificate will be mailed or provided to you no later than thirty (30) days after coverage
begins. If you wish to have this coverage, you will give us a written statement that you desire
to obtain insurance coverage. The monthly premiums for this insurance will be treated as a
Purchase and added to your Purchases Account balance each month.
15. Default: You will be in default if you fail to make a minimum payment when due. You
will be in default if you break any promise you made under this Agreement, or under any
other written agreement made in connection with use of the Card. You will also be in default
if you become insolvent, declare bankruptcy or die. When you are in default, the Credit
Union may demand immediate payment of the entire amount you owe under this Agreement
without giving you advance notice.
Also, we may prohibit any further transactions on your Account, cancel the Cards, and
revoke any privileges attaching to the Cards. You agree to surrender all Cards to us or our
designee upon demand. If you default, we, at our option, may refuse to pay any of your
convenience checks that are presented to us. If we decide to honor such checks, you will owe
us the amount of such checks under the terms of this Agreement.
16. No Notice or Loss of Rights: We do not have to notify you if any amount owing under this
Agreement is not paid by the day it becomes due. We can do any of the following without
notifying you or losing any right against you:
a. accept a check or money order marked “paid in full” or with similar language, as
payment under this Agreement, or
b. give additional time for payment of any amount owing under this Agreement, regardless of
the length of any additional time we previously gave, or
c. exercise, give up, fail to exercise or delay exercising any right against any person.

17. Collection Costs: If you are in default, you agree to pay actual costs of collection. This may
include reasonable attorney fees not to exceed 20% of the amount due.
18.Amendment: We can change the terms of this Agreement, including the periodic interest
charge and the annual percentage rate, at any time. Except where limited by applicable law,
the new terms will apply both to new Purchases and Cash Advances and to the full
outstanding balance of your Account as of the day of the change. In accordance with
applicable law, we will notify you of any increased charge or change by writing to you at the
most recent address shown for you on our records.
19. Statement, Notices and Change of Address: Any statement for your Account or any notice
concerning your Account or this Agreement we send you will be sent to your current mailing
address as shown in our records concerning your Account. We can send it by regular mail. If
your mailing address changes, you must promptly notify us in writing, of the new address.
Any notice you send us must be sent to: PCSU-MCU, P.O. Box 31112, Tampa, Florida
33631-3112.
20. No Assignment or Transfer: You cannot assign or transfer your rights under this
Agreement. Any assignment or transfer by you will be ineffective.
21. VISA Cards: The VISA Secured Card is a part of this Agreement and must be signed
immediately after you have received it. Each VISA Secured Card issued for use with your
Account is and will remain our property and must be returned to us if requested to do so. We
or anyone acting for us can keep the MCU VISA Secured Card if it is used after your account
has been canceled or after we have requested you to return it to us.
22. Continued Effectiveness: If any part of this Agreement is determined by a court to be
invalid, the rest will remain in effect.
23. Additional Cardholders, Authorized Users, and Others Using Your Account: You may
authorize others to use your Account. At your request, we may issue one additional Card to
you. This additional Card must be issued with the individual name of the authorized user
embossed thereon. You promise to pay for all Purchases and Cash Advances made by anyone
you authorize to use your Account with or without a Card, whether or not you notify us that
he or she will be using the Account and whether or not he or she exceeds any limits imposed
by you on his or her use of the Card. If another person has use of your Account and you want
to end that person's privilege, you must notify us by writing to us, by calling us, or in person.
In order to avoid unauthorized use, you should recover any Cards in that person's possession.
24. Use of the Card: We are not responsible if anyone refuses to honor this Card or any
convenience check or for any failure of an ATM to process a Cash Advance request. If there
is a problem with merchandise or services obtained with this Card, you may have the right
not to pay the remaining amount due on such merchandise or services. This right does not
however, apply to merchandise or services obtained with convenience checks or with money
from a Cash Advance. Following this Agreement is an explanation of your rights to dispute
billing errors. We will have no responsibility for merchandise or services purchased with this
Card.
25. Unauthorized Use of Card: You will be liable for all authorized charges to the Account
including charges obtained by all persons whom you authorize to use the Account. You may
be liable for the unauthorized use of your MCU VISA Secured Card. You will not be liable

for unauthorized use which occurs after you notify us at: PSCU-MCU, P.O. Box 31112,
Tampa, Florida 33631-3112, orally or in writing, of the loss, theft or possible unauthorized
use.
26. Important Notice: Do not use your credit card before you read this Agreement or if this
Agreement contains any blank space. You are entitled to a completely ﬁlled in copy of
this credit Agreement.
27. Original Application: You agree to let the Credit Union keep the signed copy of your VISA
application to comply with federal and/or state law.
28. Governing Law/Effective Date: This Agreement and all matters arising out of or in
connection with any credit transaction shall be governed by, and construed in accordance
with the laws of the State of New York and the applicable laws of the U.S. This Agreement
incorporates by reference all the terms and conditions contained in any accompanying
supplement. This Agreement will become effective as to Cash Advances when you use the
Card to take a Cash Advance. This Agreement will become effective as to Purchases when
you use the Card, and the sales slip or other document you sign in connection with such use
is accepted by us or our representatives at our ofﬁces in New York. (This Agreement will not
become effective as a result of unauthorized use of the Card for any Purchase which occurs
before you ﬁrst use the Card and after its loss or theft). The Credit Union may terminate this
Agreement or cancel your Card at any time. Such termination, or cancellation, however, will
not effect your obligation to pay the Account balance.
29. Lost or Stolen Cards: You must notify us immediately if a Card is lost or stolen or if you
believe there has been or is about to be unauthorized use of Card by calling: (800) 449-7728.
30. Prohibited Use: You may not use your MCU Secured VISA Card for any illegal transaction.
Dear Card Member: This is your contract. Please read it and keep it for your records because
when you use your Card, you’ve agreed to the terms in the contract.
Municipal Credit Union
By_______________________________________
Ahmed Campbell, Vice President, Loan Operations
P.O. Box 992, Peck Slip Station
New York, New York 10272-0992
Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit
Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:

Municipal Credit Union
Customer Service
P.O. Box 31112
Tampa, Florida 33631-3112
In your letter, give us the following information:


Account information: Your name and account number.



Dollar amount: The dollar amount of the suspected error.



Description of problem: If you think there is an error on your bill, describe what
you believe is wrong and why you believe it is a mistake.

You must contact us:


Within 60 days after the error appeared on your statement.



At least 3 business days before an automated payment is scheduled, if you want to
stop payment on the amount you think is wrong.

You must notify us of any potential errors in writing. You may call us, but if you do we are not
required to investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We
will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you
why we believe the bill is correct.
While we investigate whether or not there has been an error:


We cannot try to collect the amount in question, or report you as delinquent on
that amount.



The charge in question may remain on your statement, and we may continue to
charge you interest on that amount.



While you do not have to pay the amount in question, you are responsible for the
remainder of your balance.



We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:


If we made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.



If we do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send you a statement of
the amount you owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.

If you receive our explanation but still believe your bill is wrong, you must write to us within 10
days telling us that you still refuse to pay. If you do so, we cannot report you as delinquent
without also reporting that you are questioning your bill. We must tell you the name of anyone
to whom we reported you as delinquent, and we must let those organizations know when the
matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you
question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card,
and you have tried in good faith to correct the problem with the merchant, you may have the
right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current
mailing address, and the purchase price must have been more than $50.
(Note: Neither of these are necessary if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with Cash
Advances from an ATM or with a check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in
writing at:
Municipal Credit Union
Customer Service
P.O. Box 31112
Tampa, Florida 33631-3112
While we investigate, the same rules apply to the disputed amount as discussed above. After we
finish our investigation, we will tell you our decision. At that point, if we think you owe an
amount and you do not pay, we may report you as delinquent.

Rev. 06/17

